Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 MISSISSIPPI STATE MEDICAID
   FRAUD CONTROL UNIT:
    2014 ONSITE REVIEW




                       Suzanne Murrin
                  Deputy Inspector General for
                   Evaluation and Inspections

                        August 2014
                       OEI-09-13-00700
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
MISSISSIPPI STATE MEDICAID FRAUD CONTROL UNIT:
2014 ONSITE REVIEW
OEI-09-13-00700

WHY WE DID THIS STUDY

The Office of Inspector General (OIG) oversees the activities of all State Medicaid Fraud
Control Units (MFCUs or Units). As part of this oversight, OIG conducts periodic
reviews of all Units and prepares public reports based on these reviews. The reviews
assess Unit performance in accordance with the 12 MFCU performance standards and
monitor Unit compliance with Federal grant requirements.

HOW WE DID THIS STUDY

We conducted an onsite review in January 2014. We based our review on an analysis of
data from seven sources: (1) a review of policies, procedures, and documentation on the
Unit’s operations, staffing, and caseload for fiscal years (FYs) 2011 through 2013;
(2) a review of financial documentation; (3) structured interviews with key stakeholders;
(4) a survey of Unit staff; (5) structured interviews with the Unit’s management and
selected staff; (6) an onsite review of a sample of case files that were open in FYs 2011
through 2013; and (7) an onsite observation of Unit operations.

WHAT WE FOUND

From FYs 2011 through 2013, the Unit reported recoveries of $52 million,
174 convictions, and 37 civil judgments and settlements. A Unit supervisor approved the
opening and closing of most case files; however, 44 percent of case files lacked
documentation of periodic supervisory reviews. In addition, the Unit did not adequately
safeguard some of its case files. The Unit did not investigate 5 percent of cases before
the statute of limitations expired, and may not have enough investigators assigned to
patient abuse and neglect cases. The Unit also did not refer 11 sentenced individuals to
OIG for program exclusion within an appropriate timeframe. Finally, the Unit’s policies
and procedures manual did not reflect current Unit operations.

WHAT WE RECOMMEND

We recommend that the Mississippi Unit (1) ensure that supervisors approve the opening
and closing of cases and that periodic supervisory reviews are conducted and documented
in Unit case files; (2) ensure that case files are secure; (3) ensure that all cases are
investigated or closed, as appropriate, before the statute of limitations expires; (4) assess
the allocation of existing staff levels; (5) ensure that it refers all sentenced individuals for
exclusion to OIG within an appropriate timeframe; and (6) revise its policies and
procedures manual to reflect current operations. The Unit concurred with all six of our
recommendations.
TABLE OF CONTENTS
Objective ......................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................4
Findings........................................................................................................6
           From FY 2011 through FY 2013, the Unit reported recoveries
           of $52 million, 174 convictions, and 37 civil judgments and
           settlements........................................................................................6
           A Unit supervisor approved the opening and closing of most
           case files; however, 44 percent of case files lacked
           documentation of periodic supervisory reviews ..............................7
           The Unit did not adequately safeguard some of its case files ..........8
           The Unit did not investigate 5 percent of cases before the
           statute of limitations expired ............................................................9
           The Unit may not have enough investigators assigned to
           cases of patient abuse and neglect ...................................................9
           The Unit did not refer 11 sentenced individuals to OIG for
           program exclusion within an appropriate timeframe .....................10
           The Unit’s policies and procedures manual did not reflect
           current Unit operations .................................................................. 11
Conclusion and Recommendations ............................................................12
           Unit Comments and Office of Inspector General Response ..........14
Appendixes ................................................................................................15
           A: Performance Standards for MFCUs (Units) ............................15
           B: Revised 2012 Performance Standards for MFCUs ..................19
           C: Referrals of Provider Fraud and Patient Abuse and Neglect
           to the Mississippi MFCU by Source, FYs 2011 Through 2013 .....26
           D: Investigations Opened and Closed by the Mississippi
           MFCU, by Provider Category and Case Type, FYs 2011
           Through 2013 .................................................................................27
           E: Methodology ............................................................................29
           F: Case File Review Population, Sample Size Counts, and
           Confidence Interval Estimates .......................................................32
          G: Unit Comments ........................................................................34
Acknowledgments......................................................................................36
                   OBJECTIVE
                   To conduct an onsite review of the Mississippi State Medicaid Fraud
                   Control Unit (MFCU or Unit).

                   BACKGROUND
                   The mission of State MFCUs, as established by Federal statute, is to
                   investigate and prosecute Medicaid provider fraud and patient abuse and
                   neglect under State law. 1 Pursuant to Title XIX of the SSA, each State
                   must maintain a certified Unit unless the Secretary of Health and Human
                   Services determines that operation of a Unit would not be cost-effective
                   because (1) minimal Medicaid fraud exists in that State; and (2) the State
                   has other, adequate safeguards to protect Medicaid beneficiaries from
                   abuse and neglect. 2 Currently, 49 States and the District of Columbia
                   (States) have created such Units. 3 In fiscal year (FY) 2013, combined
                   Federal and State grant expenditures for the Units totaled $230 million. 4, 5
                   That year, the 50 Units employed 1,912 individuals. 6
                   To carry out its duties in an effective and efficient manner, each Unit must
                   employ an interdisciplinary staff that consists of at least an investigator, an
                   auditor, and an attorney. 7 The staff reviews complaints referred by the
                   State Medicaid agency and other sources and determines their potential for




                   1
                     Social Security Act (SSA) § 1903(q).
                   2
                     SSA § 1902(a)(61). Regulations at 42 CFR 1007.11(b)(1) add that the Unit’s
                   responsibilities may include reviewing complaints of misappropriation of patients’
                   private funds in residential health care facilities.
                   3
                     North Dakota and the territories of American Samoa, Guam, the Northern Mariana
                   Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units. Medicaid
                   Fraud Control Units, Office of Inspector General (OIG) web site. Accessed at
                   http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/index.asp on February 11,
                   2014 .
                   4
                     All FY references in this report are based on the Federal FY (October 1 through
                   September 30).
                   5
                     OIG, MFCU Statistical Data for Fiscal Year 2013. Accessed at
                   http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/ on March 10, 2014.
                   6
                     Ibid.
                   7
                     SSA § 1903(q)(6) and 42 CFR § 1007.13.

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                         1
                   criminal prosecution and/or civil action. Collectively, in FY 2013, the
                   50 Units reported 1,341 convictions and 879 civil judgments and
                   settlements. That year, the Units reported recoveries of approximately
                   $2.5 billion.8
                   Units are required to have either Statewide authority to prosecute cases or
                   formal procedures to refer suspected criminal violations to an office with
                   such authority. 9 In Mississippi and 43 other States, the Units are located
                   within offices of State Attorneys General that have this authority. In the
                   remaining six States, the Units are located within other State agencies;
                   generally, such Units must refer cases to offices with prosecutorial
                   authority. 10, 11 Additionally, each Unit must be a single, identifiable entity
                   of State government, distinct from the State Medicaid agency, and each
                   Unit must develop a formal agreement—i.e., a memorandum of
                   understanding (MOU)—that describes the Unit’s relationship with that
                   agency. 12
                   Oversight of the MFCU Program
                   The Secretary of Health and Human Services delegated to OIG the authority
                   both to annually certify the Units and to administer grant awards to
                   reimburse States for a percentage of their costs of operating them. 13 All
                   Units are currently funded by the Federal Government on a 75-percent
                   matching basis, with the States contributing the remaining 25 percent. 14 To
                   receive Federal reimbursement, each Unit must submit an initial application
                   to OIG. 15 OIG reviews the application and notifies the Unit whether it is



                   8
                     OIG, MFCU Statistical Data for Fiscal Year 2013. Accessed at
                   http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/ on March 10, 2014.
                   Pursuant to 42 CFR § 1007.17, Units report the total amount of recovered funds in their
                   annual reports to OIG. “Recoveries” are defined as the amount of money that defendants
                   are required to pay as a result of a judgment or settlement in criminal and civil cases, and
                   may not reflect actual collections. Recoveries may involve cases that include
                   participation by other Federal and State agencies.
                   9
                     SSA § 1903(q)(1).
                   10
                      Medicaid Fraud Control Units, OIG web site. Accessed at
                   http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/index.asp on March 18, 2014.
                   11
                      In States with a Unit, the Unit shares responsibility for protecting the integrity of the
                   Medicaid program with the section of the State Medicaid agency that functions as the
                   Program Integrity Unit. Some States also employ a Medicaid Inspector General who
                   conducts and coordinates activities against fraud, waste, and abuse for the State agency.
                   12
                      SSA § 1903(q)(2) and 42 CFR §§ 1007.5 and 1007.9(d).
                   13
                      The portion of funds reimbursed to States by the Federal Government for its share of
                   expenditures for the Federal Medicaid program, including the MFCUs, is referred to as
                   Federal Financial Participation.
                   14
                      SSA § 1903(a)(6)(B).
                   15
                      42 CFR § 1007.15(a).

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                           2
                   approved and the Unit is certified. Approval and certification are valid for a
                   1-year period; the Unit must be recertified each year thereafter. 16
                   Pursuant to Title XIX of the SSA, States must operate Units that effectively
                   carry out their statutory functions and meet program requirements. 17 OIG
                   developed and issued 12 performance standards to define the criteria that
                   OIG applies in assessing whether a Unit is effectively carrying out statutory
                   functions and meeting program requirements. 18 Examples of standards
                   include maintaining an adequate caseload through referrals from several
                   sources, maintaining an annual training plan for all three of the professional
                   disciplines (i.e., for auditors, investigators, and attorneys), and establishing
                   policy and procedures manuals to reflect the Unit’s operations. See
                   Appendix A for a complete list of the performance standards. 19
                   Mississippi Unit
                   Located in Jackson, the Unit is an autonomous entity within the
                   Mississippi Office of the Attorney General and has the authority to
                   prosecute cases of Medicaid fraud and cases of patient abuse and neglect. 20
                   The Unit Director serves as the Chief Attorney and directly supervises all
                   Unit attorneys, the Chief Investigator, Unit auditors, and Unit support
                   staff. The Chief Investigator supervises all Unit investigators and the
                   Fraud Supervisor. The Fraud Supervisor shares supervisory duties with
                   the Chief Investigator by directly supervising the Unit investigators who
                   specialize in provider fraud. At the time of our review, 30 of the Unit’s
                   employees were located in Jackson, and 1 attorney and 1 investigator were
                   located in Biloxi.
                   Mississippi State law mandates that any person who “has knowledge of or
                   reasonable cause to believe that any patient or resident of a care facility
                   has been the victim of abuse, neglect or exploitation” must file a report
                   with the Unit. 21 Unit management stated that this reporting requirement
                   leads to an average of 1,900 referrals of patient abuse and neglect from


                   16
                      42 CFR § 1007.15(b) and (c).
                   17
                      SSA § 1902(a)(61).
                   18
                      59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov on February 11,
                   2014.
                   19
                      The performance standards referred to in this report were published in 1994 and were
                   in effect during FYs 2011 and 2012, which constitutes most of our review period. In
                   June 2012, OIG published a revision of the performance standards (77 Fed. Reg. 32645,
                   June 1, 2012). Our onsite data collection took place in January 2014. When referring to
                   the performance standards, we refer to the 1994 standards, unless otherwise noted. See
                   Appendix B for a complete list of the revised performance standards.
                   20
                      For the purposes of this report, misappropriation of patients’ private funds in
                   residential health care facilities is included in the category of patient abuse and neglect.
                   21
                      MS Code § 43-47-37.

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                               3
                   providers to the Unit each year. The Unit also receives referrals of
                   provider fraud from the Mississippi Division of Medicaid, private citizens,
                   and from Federal agencies such as OIG. For additional information on
                   Unit referrals, see Appendix C.
                   According to the Unit, upon receiving a referral of patient abuse and
                   neglect, the Chief Investigator should review the information and
                   determine whether to refer it to another agency or open it as a case and
                   assign it to an investigator. Fraud referrals should be reviewed by the Unit
                   Director and Fraud Supervisor before being assigned to a team consisting
                   of an investigator, auditor, and attorney. After a referral is accepted for
                   investigation, one of the legal secretaries should open it as a case in the
                   Unit’s electronic case tracking system. The Unit may open a case and
                   pursue it through a variety of actions, including criminal prosecution, civil
                   action, or a combination of the two. The Unit may close a case for a
                   variety of reasons, including but not limited to resolving it through
                   criminal and/or civil action or referring it to another agency. For
                   additional information on the Unit’s opened and closed investigations,
                   including a breakdown by case type and provider category, see
                   Appendix D.
                   Previous Review
                   In 2008, while the Mississippi Unit was under the supervision of a
                   previous director, OIG conducted an onsite review of the Unit and
                   identified two concerns related to the MFCU performance standards. The
                   review found that the Unit did “not have standardized MFCU-specific
                   policies and procedures in place governing MFCU activities.” The review
                   also noted that supervisory case file reviews were not conducted on a
                   periodic basis. In its response to the review, the Unit stated that it would
                   incorporate MFCU-specific policies and procedures into a written manual.
                   The Unit also noted that it had begun documenting supervisory reviews in
                   the case files since the 2008 onsite review. According to current Unit
                   staff, the staff at that time developed draft policies and procedures that
                   were formally implemented in July 2010 after the current director was
                   hired.

                   METHODOLOGY
                   We conducted the onsite review in January 2014. We based our review on
                   an analysis of data from seven sources: (1) a review of Unit
                   documentation, including policies and procedures related to the Unit’s
                   operations, staffing, and caseload for FYs 2011 through 2013; (2) a review
                   of financial documentation for FYs 2011 through 2013; (3) structured
                   interviews with key stakeholders; (4) a survey of Unit staff; (5) structured

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)            4
                   interviews with the Unit’s management and selected staff; (6) an onsite
                   review of a sample of case files that were open at any point during
                   FYs 2011 through 2013; and (7) an onsite review of Unit operations.
                   Appendix E contains a detailed methodology. Appendix F contains the
                   point estimates and 95-percent confidence intervals for the statistics in this
                   report.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency. 22




                   22
                     Full text of these standards is available online at
                   http://www.ignet.gov/pande/standards/oeistds11.pdf.

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)             5
                   FINDINGS
                   From FY 2011 through FY 2013, the Unit reported
                   recoveries of $52 million, 174 convictions, and 37 civil
                   judgments and settlements
                   From FY 2011 through FY 2013, the Unit reported total criminal and civil
                   recoveries of $52 million—an annual average of $17 million (see Table 1).
                   Of the $52 million in total recoveries, the Unit attributed $16 million to
                   criminal recoveries. The Unit’s criminal recoveries were significantly
                   higher in FYs 2012 and 2013 than in FY 2011. The Unit reported that this
                   increase resulted from one case in FY 2012 and one case in FY 2013 that
                   each had significant recoveries. Over the 3-year period, “global” case
                   judgments and settlements accounted for $33 million of the total civil
                   recoveries and global cases accounted for 35 of the Unit’s 2,121 cases. 23
                   The Unit’s annual average expenditures for FYs 2011 through 2013 were
                   $2.8 million.24
                   Table 1: Funds Reported Recovered by the Mississippi Unit,
                   FYs 2011 Through 2013
                                                                                                          3-Year               Annual
                                                  FY 2011           FY 2012           FY 2013
                                                                                                           Total              Average

                    Criminal
                                                 $139,989       $7,241,534         $8,784,328      $16,165,851              $5,388,617
                    Recoveries

                    Global Civil
                                             $15,044,539        $1,459,454       $16,789,721       $33,293,714             $11,097,905
                    Recoveries

                    Nonglobal Civil
                                                   $6,500          $154,000        $2,234,068        $2,394,568              $798,189
                    Recoveries

                    Total Civil
                                             $15,051,039        $1,613,454       $19,023,789       $35,688,282             $11,896,094
                    Recoveries

                    Total Civil and
                    Criminal                 $15,191,028        $8,854,988       $27,808,117       $51,854,133             $17,284,711
                    Recoveries

                    Total
                                              $2,386,432        $2,802,537         $3,068,990        $8,257959              $2,752,653
                    Expenditures

                   Source: OIG review of Unit self-reported quarterly statistical reports and other data, FYs 2011–2013.




                   23
                      Unit-reported recoveries include funds recovered from multi-State, or “global” civil
                   false claims cases, which consist of both those worked directly by the Unit and those
                   worked by staff from other Units.
                   24
                      The figures presented in this paragraph are rounded.

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                                                 6
                   From FY 2011 through FY 2013, the Unit Reported 174 Convictions and
                   37 Civil Judgments and Settlements. From FY 2011 through FY 2013, the
                   Unit’s convictions and civil judgments and settlements remained relatively
                   consistent. During this period, the Unit reported 174 convictions and
                   37 civil judgments and settlements—an annual average of 58 convictions
                   and 12 civil judgments and settlements (see Table 2). Of the Unit’s
                   174 convictions over the 3-year period, 166 were for patient abuse and
                   neglect cases and 8 were for provider fraud cases.
                   Table 2: Unit Convictions and Civil Judgments and Settlements,
                   FYs 2011 Through 2013 25
                                                                                                                3-Year      Annual
                                                                   FY 2011       FY 2012        FY 2013
                                                                                                                 Total     Average

                    Convictions                                           52            69             53           174         58


                    Civil Judgments and Settlements                       13            10             14            37       12.3


                   Source: OIG review of Unit self-reported quarterly statistical reports and other data, FYs 2011-2013.


                   From FYs 2011 through 2013, the Unit opened an average of 247 cases
                   annually, with an average of 207 cases of patient abuse and neglect and
                   41 cases of provider fraud. During this time, the Unit closed an average of
                   463 cases annually, averaging 442 cases of patient abuse and neglect and
                   21 cases of provider fraud. 26 From FYs 2011 through 2013, the Unit
                   received an average of 1,926 referrals annually, with an average of
                   1,885 referrals of patient abuse and neglect and 41 referrals of provider
                   fraud. 27

                   A Unit supervisor approved the opening and closing of
                   most case files; however, 44 percent of case files
                   lacked documentation of periodic supervisory reviews
                   According to Performance Standard 6(b), Unit supervisors should approve
                   the opening and closing of cases to ensure a continuous case flow and the
                   timely completion of cases. Supervisory approval to open and close cases
                   suggests that Unit supervisors are monitoring the intake and resolutions of
                   cases, thereby facilitating progress in the cases. According to Unit
                   management, the Chief Investigator should approve the opening of all
                   cases of patient abuse and neglect, and the Fraud Supervisor should
                   approve the opening of all fraud cases. Unit management also reported

                   25
                      Civil judgments and settlements include those received from global cases.
                   26
                      Closures include multiple cases opened before FY 2011.
                   27
                      The averages in this paragraph are rounded.

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                                              7
                   that during the review period, supervisory approval to close a case should
                   have been documented in all case files except for cases of patient abuse
                   and neglect that were closed due to court dispositions (for example,
                   convictions). The Unit documented supervisory approval to open cases in
                   93 percent of the case files; the remaining 7 percent contained no
                   indication of supervisory approval to open the cases. The Unit
                   documented supervisory approval to close cases in 88 percent of the
                   closed case files; the remaining 12 percent contained no indication of
                   supervisory approval to close the cases.
                   According to Performance Standard 6(c), supervisory reviews should be
                   “conducted periodically and noted in the case file” to ensure timely case
                   completion. 28 According to Unit management, the Chief Investigator
                   meets with each investigator at least three times a year to review all of the
                   investigator’s open cases. According to Unit management, each
                   investigator should document these conversations (and any other
                   conversations with Unit management) as supervisory reviews in the case
                   files or electronic case file tracking system. However, 44 percent of Unit
                   case files lacked documentation of periodic supervisory reviews. 29

                   The Unit did not adequately safeguard some of its
                   case files
                   According to Performance Standard 1, a Unit will conform to “all
                   applicable statutes, regulations, and policy transmittals.” Pursuant to
                   Federal regulations and OIG policy, a Unit must “prevent the misuse of
                   information under the Unit’s control” by safeguarding the privacy rights of
                   witnesses, victims, and informants. 30 A Unit must also safeguard the
                   identities of suspects when the allegations are unsubstantiated, unless such
                   identities are already in the public record or the individuals clearly
                   consented to the release of their private information. 31 In addition, the
                   Unit’s policies and procedures manual states that “personnel will at no
                   time leave case material unattended in the public areas of the office.”



                   28
                      For the purposes of this report, supervisory approval to open and close a case does not
                   constitute a periodic supervisory review. Periodic supervisory reviews are demonstrated
                   by a supervisor’s reviewing a case more than once between the case’s opening and
                   closing and documenting those reviews in the case file.
                   29
                      Performance Standard 6(c) does not define “periodically” for the purpose of case file
                   reviews. Because Unit practice is to conduct supervisory reviews three times a year, we
                   excluded case files that were open for less than 1 year.
                   30
                      42 CFR § 1007.11(f); OIG State Fraud Policy Transmittal 99-02, Public Disclosure
                   Requests and Safeguarding of Privacy Rights (December 22, 1999).
                   31
                      Ibid.

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                             8
                   However, we observed that some Unit case file boxes labeled with
                   personally identifiable information were stored unlocked in public areas of
                   the office. Although individuals must use a coded access card to enter the
                   public areas of the Unit’s office, non-Unit staff share this office space, and
                   other non-Unit personnel (such as cleaning staff and information
                   technology contractors) can gain access to areas where these unlocked
                   case files are located.

                   The Unit did not investigate 5 percent of cases before
                   the statute of limitations expired
                   According to Performance Standard 5(a), the Unit should “take steps to
                   maintain a continuous case flow and to complete cases in an appropriate
                   timeframe based on the complexity of the cases.” However, five cases in
                   our sample (5 percent) were closed because the Unit did not investigate
                   them before the statute of limitations expired. According to Unit
                   management, these five cases were investigations of patient abuse and
                   neglect that were considered to be lower priority because during their
                   initial review, management determined that the cases were unlikely to
                   have sufficient evidence for investigation and prosecution. 32

                   The Unit may not have enough investigators assigned
                   to cases of patient abuse and neglect
                   According to 2012 Performance Standard 2(c), the Unit should employ
                   “an appropriate mix and number of attorneys, auditors, investigators, and
                   other professional staff… that allows the Unit to effectively investigate
                   and prosecute… an appropriate volume of case referrals and workload for
                   both Medicaid fraud and patient abuse and neglect.” At the time of our
                   review, the Unit had seven investigators specializing in cases of patient
                   abuse and neglect and seven investigators specializing in cases of provider
                   fraud. However, in FY 2013, the Mississippi Unit received the
                   third-highest number among the 50 Units of referrals of patient abuse and
                   neglect and had the highest number of ongoing investigations of patient
                   abuse and neglect. 33 The Unit also had the highest proportion of cases of




                   32
                      Unit management reported that because the Unit has a large caseload of cases of patient
                   abuse and neglect, the Chief Investigator assigns each incoming case a priority level.
                   Any complaints involving the death or sexual assault of a patient are assigned the highest
                   priority.
                   33
                      In the fourth quarter of FY 2013, the Mississippi Unit had 611 ongoing investigations
                   of patient abuse and neglect. California had the second-highest number of such
                   investigations, with 439.


Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                        9
                   patient abuse and neglect to cases of fraud—89 percent to 11 percent—of
                   the 50 Units. 34
                   Members of Unit management and staff reported that Mississippi’s
                   mandatory reporting requirement for patient abuse and neglect created
                   large caseloads that may have limited the Unit’s ability to effectively
                   investigate all of its cases. Unit management reported that fraud
                   investigators in the Unit each had caseloads of between 8 and 15 cases,
                   whereas the Unit’s investigators of patient abuse and neglect each had
                   caseloads of between 60 and 80 cases. Unit management reported that the
                   ideal caseload would be 50 or fewer cases per investigator of patient abuse
                   and neglect. According to one staff member, “[W]ith around
                   1,800 neglect/abuse and exploitation complaints fielded annually… the
                   number of investigators is inadequate to handle the caseload.” Another
                   staff member reported that “the number of cases opened by our Unit seems
                   to increase each year… I feel that our unit could use more manpower to
                   handle the increased volume of cases.”
                   Unit management reported that the Unit is trying to get the caseload for
                   each investigator of patient abuse and neglect down to a “manageable
                   level.” Management reported that as part of this effort, the Unit
                   implemented a new intake procedure that screens potential cases of patient
                   abuse and neglect for sufficiency of evidence and consistency with the
                   Unit’s statutory functions. Management also reported that they have made
                   an effort to close out unsubstantiated cases and have begun assigning
                   teams of investigators to work on complex and/or high-priority cases. For
                   example, the Chief Investigator may ask all Unit investigators to conduct
                   interviews for a single case of fraud or of patient abuse and neglect to
                   ensure that it is completed in a timely manner.

                   The Unit did not refer 11 sentenced individuals to OIG
                   for program exclusion within an appropriate timeframe
                   According to Performance Standard 8(d), when a convicted individual is
                   sentenced, the Unit should send a referral letter to OIG “within 30 days or
                   other reasonable time period” for the purpose of program exclusion. 35, 36


                   34
                      In the fourth quarter of FY 2013, Alabama had the second-highest proportion of cases
                   of patient abuse and neglect to cases of fraud—63 percent to 37 percent.
                   35
                      Pursuant to section 1128(a) of the SSA, OIG excludes from participation in Federal
                   health care programs any person or entity convicted of a criminal offense related to the
                   delivery of an item or service under the Medicaid program or to the neglect or abuse of
                   patients in residential health care facilities. No payment may be made by Medicaid,
                   Medicare, or other Federal health care programs for an item or service provided, ordered,
                   or prescribed by an excluded individual or entity. 42 CFR § 1001.1901.


Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                       10
                   The Unit reported 174 total convictions within the review period, but did
                   not refer 11 of those sentenced individuals to OIG for program exclusion
                   within an appropriate timeframe. Each of these 11 individuals had been
                   sentenced at least 4 months prior to our onsite review. However, they were
                   referred to OIG more than 60 days after their sentencing dates, including
                   two individuals who were referred more than 180 days after their sentencing
                   dates.

                   The Unit’s policies and procedures manual did not
                   reflect current Unit operations
                   According to 2012 Performance Standard 3(a), the Unit should have
                   written guidelines or manuals that contain current policies and procedures
                   for its operations that are consistent with the performance standards. The
                   Unit’s policies and procedures manual was finalized approximately
                   3 years prior to our onsite review, and management reported that the
                   manual is continually updated. However, the manual did not address
                   procedures for supervisory approval to open and close cases or for
                   documenting periodic supervisory reviews in the Unit’s case files.




                   36
                      According to 2012 Performance Standard 8(f), all referrals for exclusion should be
                   transmitted to OIG “within 30 days.” Unlike its 1994 counterpart, the 2012 standard does
                   not include an additional option for transmitting such referrals within an unspecified
                   “other reasonable time period.”

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                     11
                   CONCLUSION AND RECOMMENDATIONS
                   From FY 2011 through FY 2013, the Unit reported recoveries of
                   $52 million, 174 convictions, and 37 civil judgments and settlements. A
                   Unit supervisor approved the opening and closing of most case files.
                   Opportunities for Unit improvement exist. Unit case files did not
                   consistently contain documentation of periodic supervisory reviews, and
                   the Unit did not adequately safeguard some of its case files. The Unit did
                   not investigate 5 percent of cases before the statute of limitations expired
                   and may not have enough investigators assigned to patient abuse and
                   neglect cases. In addition, the Unit also did not refer all sentenced
                   individuals to OIG for program exclusion within an appropriate
                   timeframe. Finally, the Unit’s policies and procedures manual did not
                   reflect current Unit operations. Other than with regard to case file
                   security, we found no evidence of noncompliance with applicable laws,
                   regulations, or policy transmittals.
                   We recommend that the Mississippi Unit:
                   Ensure that supervisors approve the opening and closing of
                   cases and that periodic supervisory reviews are conducted
                   and documented in Unit case files
                   The Unit should ensure that supervisors are approving the opening and
                   closing of cases and periodically reviewing case files, and these periodic
                   supervisory reviews should be documented in the case files.
                   Ensure that case files are secure
                   The Unit should store its case files and other documentation containing
                   personally identifiable information in a locked room or in locked storage
                   cabinets when not in use.
                   Ensure that all cases are investigated or closed, as
                   appropriate, before the statute of limitations expires
                   The Unit should establish policies and procedures to track open cases to
                   ensure that they are investigated or closed, as appropriate, before the
                   statute of limitations expires.
                   Assess the allocation of existing staff levels and take
                   appropriate action
                   The Unit should assess whether existing staff levels are efficiently allocated
                   between cases of provider fraud and cases of patient abuse and neglect. The
                   Unit should also assess whether existing staff allocations are sufficient to
                   respond to the volume of referrals and to investigate and prosecute the Unit’s
                   cases in a timely manner. The Unit should take appropriate action on the


Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)             12
                   basis of these assessments. For example, if appropriate, the Unit could hire
                   additional staff.
                   Ensure that letters referring providers for exclusion are
                   submitted to OIG within an appropriate timeframe
                   The Unit should ensure that letters referring individuals and entities for
                   exclusion are sent within 30 days of defendant sentencing, consistent with
                   Standard 8(f) of the 2012 Performance Standards.
                   Revise its policies and procedures manual to reflect current
                   Unit operations
                   The Unit should revise its policies and procedures manual to include
                   current Unit procedures. Specifically, to be consistent with the current
                   performance standards, the Unit should revise its policies and procedures
                   manual to include procedures for supervisory approval to open and close
                   cases and for documenting periodic supervisory reviews in the Unit’s case
                   files.




Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)               13
                   UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   The Unit concurred with the six report recommendations.
                   Regarding the first recommendation, the Unit reported that it has
                   implemented new procedures to ensure that the case files include
                   documentation of supervisory approval to open and close cases and of
                   supervisory reviews.
                   Regarding the second recommendation, the Unit reported that it will
                   ensure that files are not left unattended in the areas of the office that are
                   open to non-Unit staff.
                   Regarding the third recommendation, the Unit reported that each case is
                   assigned a priority level upon initial review and that the cases mentioned
                   in the third recommendation did not have sufficient evidence for
                   investigation or prosecution.
                   Regarding the fourth recommendation, the Unit reported that it has
                   requested additional investigators for FY 2015 and that these investigators
                   will be assigned to cases of patient abuse and neglect.
                   Regarding the fifth recommendation, the Unit reported that it has
                   implemented new procedures to ensure that all sentenced individuals are
                   reported to OIG within an appropriate timeframe.
                   Regarding the sixth recommendation, the Unit reported that it is in the
                   process of updating its policies and procedures manual to reflect current
                   operations.
                   The full text of the Unit’s comments is provided in Appendix G.




Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                14
                   APPENDIX A
                   Performance Standards for MFCUs (Units) 37
                   1. A Unit will be in conformance with all applicable statutes,
                      regulations, and policy transmittals. In meeting this standard, the
                      Unit must meet, but is not limited to, the following requirements:
                      a. The Unit professional staff must consist of permanent employees
                         working full-time on Medicaid fraud and patient abuse matters.
                        b. The Unit must be separate and distinct from the single State
                           Medicaid agency.
                        c. The Unit must have prosecutorial authority or an approved formal
                           procedure for referring cases to a prosecutor.
                        d. The Unit must submit annual reports, with appropriate
                           certifications, on a timely basis.
                        e. The Unit must submit quarterly reports on a timely basis.
                      f. The Unit must comply with the Americans with Disabilities Act,
                          the Equal Employment opportunity requirements, the Drug Free
                          workplace requirements, Federal lobbying restrictions, and other
                          such rules that are made conditions of the grant.
                   2. A Unit should maintain staff levels in accordance with staffing
                      allocations approved in its budget. In meeting this standard, the
                      following performance indicators will be considered:
                      a. Does the Unit employ the number of staff that was included in the
                          Unit's budget as approved by the Office of Inspector General
                          (OIG)?
                        b. Does the Unit employ the number of attorneys, auditors, and
                           investigators that were approved in the Unit's budget?
                        c. Does the Unit employ a reasonable size of professional staff in
                           relation to the State’s total Medicaid program expenditures?
                      d. Are the Unit office locations established on a rational basis and are
                          such locations appropriately staffed?
                   3. A Unit should establish policies and procedures for its operations,
                      and maintain appropriate systems for case management and case
                      tracking. In meeting this standard, the following performance
                      indicators will be considered:

                   37
                     59 Fed. Reg. 49080 (Sept. 26, 1994). These performance standards were in effect
                   during most of our review period and precede the performance standards published in
                   June 2012.

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                      15
                        a. Does the Unit have policy and procedure manuals?
                       b. Is an adequate, computerized case management and tracking
                           system in place?
                   4. A Unit should take steps to ensure that it maintains an adequate
                       workload through referrals from the single State agency and other
                       sources. In meeting this standard, the following performance
                       indicators will be considered:
                       a. Does the Unit work with the single State Medicaid agency to
                           ensure adequate fraud referrals?
                        b. Does the Unit work with other agencies to encourage fraud
                           referrals?
                        c. Does the Unit generate any of its own fraud cases?
                      d. Does the Unit ensure that adequate referrals of patient abuse
                          complaints are received from all sources?
                   5. A Unit’s case mix, when possible, should cover all significant
                      provider types. In meeting this standard, the following performance
                      indicators will be considered:
                      a. Does the Unit seek to have a mix of cases among all types of
                          providers in the State?
                        b. Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                           patient abuse cases?
                        c. Does the Unit seek to have a mix of cases that reflect the
                           proportion of Medicaid expenditures for particular provider
                           groups?
                        d. Are there any special Unit initiatives targeting specific provider
                           types that affect case mix?
                      e. Does the Unit consider civil and administrative remedies when
                          appropriate?
                   6. A Unit should have a continuous case flow, and cases should be
                      completed in a reasonable time. In meeting this standard, the
                      following performance indicators will be considered:
                      a. Is each stage of an investigation and prosecution completed in an
                          appropriate time frame?
                        b. Are supervisors approving the opening and closing of
                           investigations?
                        c. Are supervisory reviews conducted periodically and noted in the
                           case file?

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)             16
                   7. A Unit should have a process for monitoring the outcome of cases.
                      In meeting this standard, the following performance indicators will be
                      considered:
                      a. The number, age, and type of cases in inventory.
                        b. The number of referrals to other agencies for prosecution.
                        c. The number of arrests and indictments.
                        d. The number of convictions.
                        e. The amount of overpayments identified.
                        f. The amount of fines and restitution ordered.
                        g. The amount of civil recoveries.
                      h. The numbers of administrative sanctions imposed.
                   8. A Unit will cooperate with the OIG and other federal agencies,
                      whenever appropriate and consistent with its mission, in the
                      investigation and prosecution of health care fraud. In meeting this
                      standard, the following performance indicators will be considered:
                      a. Does the Unit communicate effectively with the OIG and other
                          Federal agencies in investigating or prosecuting health care fraud
                          in their State?
                        b. Does the Unit provide OIG regional management, and other
                           Federal agencies, where appropriate, with timely information
                           concerning significant actions in all cases being pursued by the
                           Unit?
                        c. Does the Unit have an effective procedure for referring cases,
                           when appropriate, to Federal agencies for investigation and other
                           action?
                      d. Does the Unit transmit to the OIG, for purposes of program
                          exclusions under section 1128 of the Social Security Act, reports
                          of convictions, and copies of Judgment and Sentence or other
                          acceptable documentation within 30 days or other reasonable time
                          period?
                   9. A Unit should make statutory or programmatic recommendations,
                      when necessary, to the State government. In meeting this standard,
                      the following performance indicators will be considered:
                      a. Does the Unit recommend amendments to the enforcement
                          provisions of the State's statutes when necessary and appropriate to
                          do so?



Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)            17
                        b. Does the Unit provide program recommendations to single State
                           agency when appropriate?
                       c. Does the Unit monitor actions taken by State legislature or State
                           Medicaid agency in response to recommendations?
                   10. A Unit should periodically review its memorandum of
                       understanding (MOU) with the single State Medicaid agency and
                       seek amendments, as necessary, to ensure it reflects current law
                       and practice. In meeting this standard, the following performance
                       indicators will be considered:
                       a. Is the MOU more than 5 years old?
                        b. Does the MOU meet Federal legal requirements?
                        c. Does the MOU address cross-training with the fraud detection staff
                           of the State Medicaid agency?
                       d. Does the MOU address the Unit’s responsibility to make program
                           recommendations to the Medicaid agency and monitor actions
                           taken by the Medicaid agency concerning those recommendations?
                   11. The Unit director should exercise proper fiscal control over the
                       Unit resources. In meeting this standard, the following performance
                       indicators will be considered:
                       a. Does the Unit director receive on a timely basis copies of all fiscal
                           and administrative reports concerning Unit expenditures from the
                           State parent agency?
                        b. Does the Unit maintain an equipment inventory?
                       c. Does the Unit apply generally accepted accounting principles in its
                           control of Unit funding?
                   12. A Unit should maintain an annual training plan for all
                       professional disciplines. In meeting this standard, the following
                       performance indicators will be considered:
                       a. Does the Unit have a training plan in place and funds available to
                           fully implement the plan?
                        b. Does the Unit have a minimum number of hours training
                           requirement for each professional discipline, and does the staff
                           comply with the requirement?
                        c. Are continuing education standards met for professional staff?
                        d. Does the training undertaken by staff aid to the mission of the
                           Unit?



Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)           18
                   APPENDIX B
                   Revised 2012 Performance Standards for MFCUs 38
                   1. A Unit conforms with all applicable statutes, regulations, and
                      policy directives, including:
                          a. Section 1903(q) of the Social Security Act, containing the basic
                             requirements for operation of a MFCU;
                          b. Regulations for operation of a MFCU contained in 42 CFR
                             part 1007;
                          c. Grant administration requirements at 45 CFR part 92 and Federal
                             cost principles at 2 CFR part 225;
                          d. OIG policy transmittals as maintained on the OIG Web site; and
                          e. Terms and conditions of the notice of the grant award.
                   2. A Unit maintains reasonable staff levels and office locations in
                      relation to the State’s Medicaid program expenditures and in
                      accordance with staffing allocations approved in its budget.
                          a. The Unit employs the number of staff that is included in the Unit’s
                             budget estimate as approved by OIG.
                          b. The Unit employs a total number of professional staff that is
                             commensurate with the State’s total Medicaid program
                             expenditures and that enables the Unit to effectively investigate
                             and prosecute (or refer for prosecution) an appropriate volume of
                             case referrals and workload for both Medicaid fraud and patient
                             abuse and neglect.
                          c. The Unit employs an appropriate mix and number of attorneys,
                             auditors, investigators, and other professional staff that is both
                             commensurate with the State’s total Medicaid program
                             expenditures and that allows the Unit to effectively investigate and
                             prosecute (or refer for prosecution) an appropriate volume of case
                             referrals and workload for both Medicaid fraud and patient abuse
                             and neglect.
                          d. The Unit employs a number of support staff in relation to its
                             overall size that allows the Unit to operate effectively.
                          e. To the extent that a Unit maintains multiple office locations, such
                             locations are distributed throughout the State, and are adequately

                   38
                        77 Fed. Reg. 32645 (June 1, 2012).


Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                19
                             staffed, commensurate with the volume of case referrals and
                             workload for each location.
                   3. A Unit establishes written policies and procedures for its
                      operations and ensures that staff are familiar with, and adhere to,
                      policies and procedures.
                        a. The Unit has written guidelines or manuals that contain current
                           policies and procedures, consistent with these performance
                           standards, for the investigation and (for those Units with
                           prosecutorial authority) prosecution of Medicaid fraud and patient
                           abuse and neglect.
                        b. The Unit adheres to current policies and procedures in its
                           operations.
                        c. Procedures include a process for referring cases, when appropriate,
                           to Federal and State agencies. Referrals to State agencies,
                           including the State Medicaid agency, should identify whether
                           further investigation or other administrative action is warranted,
                           such as the collection of overpayments or suspension of payments.
                        d. Written guidelines and manuals are readily available to all Unit
                           staff, either online or in hard copy.
                        e. Policies and procedures address training standards for Unit
                           employees.
                   4. A Unit takes steps to maintain an adequate volume and quality of
                      referrals from the State Medicaid agency and other sources.
                        a. The Unit takes steps, such as the development of operational
                           protocols, to ensure that the State Medicaid agency, managed care
                           organizations, and other agencies refer to the Unit all suspected
                           provider fraud cases. Consistent with 42 CFR 1007.9(g), the Unit
                           provides timely written notice to the State Medicaid agency when
                           referred cases are accepted or declined for investigation.
                        b. The Unit provides periodic feedback to the State Medicaid agency
                           and other referral sources on the adequacy of both the volume and
                           quality of its referrals.
                        c. The Unit provides timely information to the State Medicaid or
                           other agency when the Medicaid or other agency requests
                           information on the status of MFCU investigations, including when
                           the Medicaid agency requests quarterly certification pursuant to
                           42 CFR 455.23(d)(3)(ii).



Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)           20
                        d. For those States in which the Unit has original jurisdiction to
                           investigate or prosecute patient abuse and neglect cases, the Unit
                           takes steps, such as the development of operational protocols, to
                           ensure that pertinent agencies refer such cases to the Unit,
                           consistent with patient confidentiality and consent. Pertinent
                           agencies vary by State but may include licensing and certification
                           agencies, the State Long Term Care Ombudsman, and adult
                           protective services offices.
                        e. The Unit provides timely information, when requested, to those
                           agencies identified in (D) above regarding the status of referrals.
                        f. The Unit takes steps, through public outreach or other means, to
                           encourage the public to refer cases to the Unit.
                   5. A Unit takes steps to maintain a continuous case flow and to
                      complete cases in an appropriate timeframe based on the
                      complexity of the cases.
                        a. Each stage of an investigation and prosecution is completed in an
                           appropriate timeframe.
                        b. Supervisors approve the opening and closing of all investigations
                           and review the progress of cases and take action as necessary to
                           ensure that each stage of an investigation and prosecution is
                           completed in an appropriate timeframe.
                        c. Delays to investigations and prosecutions are limited to situations
                           imposed by resource constraints or other exigencies.
                   6. A Unit’s case mix, as practicable, covers all significant provider
                      types and includes a balance of fraud and, where appropriate,
                      patient abuse and neglect cases.
                        a. The Unit seeks to have a mix of cases from all significant provider
                           types in the State.
                        b. For those States that rely substantially on managed care entities for
                           the provision of Medicaid services, the Unit includes a
                           commensurate number of managed care cases in its mix of cases.
                        c. The Unit seeks to allocate resources among provider types based
                           on levels of Medicaid expenditures or other risk factors. Special
                           Unit initiatives may focus on specific provider types.
                        d. As part of its case mix, the Unit maintains a balance of fraud and
                           patient abuse and neglect cases for those States in which the Unit
                           has original jurisdiction to investigate or prosecute patient abuse
                           and neglect cases.

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)              21
                        e. As part of its case mix, the Unit seeks to maintain, consistent with
                           its legal authorities, a balance of criminal and civil fraud cases.
                   7. A Unit maintains case files in an effective manner and develops a
                      case management system that allows efficient access to case
                      information and other performance data.
                        a. Reviews by supervisors are conducted periodically, consistent with
                           MFCU policies and procedures, and are noted in the case file.
                        b. Case files include all relevant facts and information and justify the
                           opening and closing of the cases.
                        c. Significant documents, such as charging documents and settlement
                           agreements, are included in the file.
                        d. Interview summaries are written promptly, as defined by the Unit’s
                           policies and procedures.
                        e. The Unit has an information management system that manages and
                           tracks case information from initiation to resolution.
                        f. The Unit has an information management system that allows for
                           the monitoring and reporting of case information, including the
                           following:
                                 1. The number of cases opened and closed and the reason that
                                    cases are closed.
                                 2. The length of time taken to determine whether to open a
                                    case referred by the State Medicaid agency or other
                                    referring source.
                                 3. The number, age, and types of cases in the Unit’s
                                    inventory/docket.
                                 4. The number of referrals received by the Unit and the
                                    number of referrals by the Unit to other agencies.
                                 5. The dollar amount of overpayments identified.
                                 6. The number of cases criminally prosecuted by the Unit or
                                    referred to others for prosecution, the number of
                                    individuals or entities charged, and the number of pending
                                    prosecutions.
                                 7. The number of criminal convictions and the number of civil
                                    judgments.
                                 8. The dollar amount of fines, penalties, and restitution
                                    ordered in a criminal case and the dollar amount of

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)            22
                                      recoveries and the types of relief obtained through civil
                                      judgments or prefiling settlements.
                   8. A Unit cooperates with OIG and other Federal agencies in the
                      investigation and prosecution of Medicaid and other health care
                      fraud.
                        a. The Unit communicates on a regular basis with OIG and other
                           Federal agencies investigating or prosecuting health care fraud in
                           the State.
                        b. The Unit cooperates and, as appropriate, coordinates with OIG’s
                           Office of Investigations and other Federal agencies on cases being
                           pursued jointly, cases involving the same suspects or allegations,
                           and cases that have been referred to the Unit by OIG or another
                           Federal agency.
                        c. The Unit makes available, to the extent authorized by law and
                           upon request by Federal investigators and prosecutors, all
                           information in its possession concerning provider fraud or fraud in
                           the administration of the Medicaid program.
                        d. For cases that require the granting of “extended jurisdiction” to
                           investigate Medicare or other Federal health care fraud, the Unit
                           seeks permission from OIG or other relevant agencies under
                           procedures as set by those agencies.
                        e. For cases that have civil fraud potential, the Unit investigates and
                           prosecutes such cases under State authority or refers such cases to
                           OIG or the U.S. Department of Justice.
                        f. The Unit transmits to OIG, for purposes of program exclusions
                           under section 1128 of the Social Security Act, all pertinent
                           information on MFCU convictions within 30 days of sentencing,
                           including charging documents, plea agreements, and sentencing
                           orders.
                        g. The Unit reports qualifying cases to the Healthcare Integrity &
                           Protection Databank, the National Practitioner Data Bank, or
                           successor data bases.
                   9. A Unit makes statutory or programmatic recommendations, when
                      warranted, to the State government.
                        a. The Unit, when warranted and appropriate, makes statutory
                           recommendations to the State legislature to improve the operation
                           of the Unit, including amendments to the enforcement provisions
                           of the State code.

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)               23
                        b. The Unit, when warranted and appropriate, makes other regulatory
                           or administrative recommendations regarding program integrity
                           issues to the State Medicaid agency and to other agencies
                           responsible for Medicaid operations or funding. The Unit monitors
                           actions taken by the State legislature and the State Medicaid or
                           other agencies in response to recommendations.
                    10. A Unit periodically reviews its Memorandum of Understanding
                        (MOU) with the State Medicaid agency to ensure that it reflects
                        current practice, policy, and legal requirements.
                        a. The MFCU documents that it has reviewed the MOU at least every
                           5 years, and has renegotiated the MOU as necessary, to ensure that
                           it reflects current practice, policy, and legal requirements.
                        b. The MOU meets current Federal legal requirements as contained in
                           law or regulation, including 42 CFR 455.21, “Cooperation with
                           State Medicaid fraud control units,” and 42 CFR 455.23,
                           “Suspension of payments in cases of fraud.”
                        c. The MOU is consistent with current Federal and State policy,
                           including any policies issued by OIG or the Centers for Medicare
                           & Medicaid Services (CMS).
                        d. Consistent with Performance Standard 4, the MOU establishes a
                           process to ensure the receipt of an adequate volume and quality of
                           referrals to the Unit from the State Medicaid agency.
                        e. The MOU incorporates by reference the CMS Performance
                           Standard for Referrals of Suspected Fraud from a State Agency to
                           a Medicaid Fraud Control Unit.
                   11. A Unit exercises proper fiscal control over Unit resources.
                        a. The Unit promptly submits to OIG its preliminary budget
                           estimates, proposed budget, and Federal financial expenditure
                           reports.
                        b. The Unit maintains an equipment inventory that is updated
                           regularly to reflect all property under the Unit’s control.
                        c. The Unit maintains an effective time and attendance system and
                           personnel activity records.
                        d. The Unit applies generally accepted accounting principles in its
                           control of Unit funding.




Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)           24
                        e. The Unit employs a financial system in compliance with the
                           standards for financial management systems contained in
                           45 CFR 92.20.
                   12. A Unit conducts training that aids in the mission of the Unit.
                        a. The Unit maintains a training plan for each professional discipline
                           that includes an annual minimum number of training hours and that
                           is at least as stringent as required for professional certification.
                        b. The Unit ensures that professional staff comply with their training
                           plans and maintain records of their staff’s compliance.
                        c. Professional certifications are maintained for all staff, including
                           those that fulfill continuing education requirements.
                        d. The Unit participates in MFCU related training, including training
                           offered by OIG and other MFCUs, as such training is available and
                           as funding permits.
                        e. The Unit participates in cross training with the fraud detection staff
                           of the State Medicaid agency. As part of such training, Unit staff
                           provide training on the elements of successful fraud referrals and
                           receive training on the role and responsibilities of the State
                           Medicaid agency.




Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)              25
                   APPENDIX C
                   Referrals of Provider Fraud and Patient Abuse and Neglect to
                   the Mississippi MFCU by Source, FYs 2011 Through 2013
                   Table C-1: Total MFCU Referrals of Fraud and Abuse and Annual Average

                                                                                                                           Annual
                    Case Type                                FY 2011          FY 2012    FY 2013     3-Year Total
                                                                                                                          Average*
                    Patient Abuse and Neglect                     1,930         1,806      1,920             5,656           1,885
                    Provider Fraud                                  49              32       42               123               41
                        Total                                     1,979         1,838      1,962             5,779           1,926

                   Source: Unit response to OIG data request.
                   *Averages in this table are rounded.

                   Table C-2: MFCU Referrals, by Referral Source

                                              FY 2011                     FY 2012           FY 2013
                                                      Abuse                    Abuse                Abuse                 Percentage
                     Referral
                                         Fraud          and        Fraud         and     Fraud        and      Total           of All
                     Source
                                                     Neglect                  Neglect              Neglect                 Referrals*
                     Providers                   5        1,929           1      1,806       4       1,920     5,665           98.0%
                     Private                  14             1        14             0       9          0
                     Citizens                                                                                        38         0.7%
                     Other                    13             0            5          0      16          0
                                                                                                                     34         0.6%
                     Medicaid                    7           0            4          0      12          0
                     Agency –
                     SUR/S 39                                                                                        23         0.4%
                     Law                         4           0            3          0       0          0
                     Enforcement                                                                                     7          0.1%
                     Licensing                   3           0            1          0       1          0
                     Board                                                                                           5          0.1%
                                                 2           0            3          0       0          0
                     OIG
                                                                                                                     5          0.1%
                     State Survey                0           0            1          0       0          0
                     and
                     Certification                                                                                   1          0.0%
                     Prosecutors                 1           0            0          0       0          0
                                                                                                                   1            0.0%
                         Total                49          1,930       32         1,806      42       1,920     5,779           100%
                         Annual
                                                          1,979                  1,838               1,962
                         Total
                         Annual
                                                                                                     1,926
                         Average*
                   Source: Unit response to OIG data request.
                   *These figures are rounded.




                   39
                     SUR/S refers to the Surveillance and Utilization Review Subsystem division of the
                   State Medicaid agency.

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                                             26
                   APPENDIX D
                   Investigations Opened and Closed by the Mississippi MFCU,
                   by Provider Category and Case Type, FYs 2011 Through 2013



                   Table D-1: Total Annual Opened and Closed Investigations

                                                                                                                            Annual
                    Case Type                      FY 2011            FY 2012       FY 2013       3-Year Total
                                                                                                                           Average*
                    Opened                                 175           223           344                742                  247
                      Patient Abuse and
                                                           126           184           310                620                  207
                      Neglect
                      Provider Fraud                        49            39            34                122                   41
                    Closed                                 344           433           614              1,389                  463
                      Patient Abuse and
                                                           320           416           589              1,325                  442
                      Neglect
                      Provider Fraud                        22            17            25                   64                 21

                  Source: Unit response to OIG data request.
                  *Averages in this column are rounded.




                   Table D-2: Patient Abuse and Neglect Investigations


                    Provider Category                          FY 2011                   FY 2012                     FY 2013

                                                          Opened        Closed       Opened        Closed         Opened     Closed
                    Home Health Aides                            0              0             1          2             1         86

                    Nondirect Care                               2          14                1          8             0          9

                    Nurses/Doctors’ Assistants                   48         87            94           131           112        253

                    Nursing Facilities                           12         70            17           113            26        111
                    Other Long-Term Care
                                                                 15         40            24            68            22         64
                    Facilities
                    Other                                        49        109            47            94            40         66

                       Total                                 126           320           184           416           201        589

                   Source: Unit response to OIG data request.




Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                                              27
                   Table D-3: Provider Fraud Investigations

                    Provider Category                       FY 2011              FY 2012           FY 2013
                    Facilities                         Opened        Closed   Opened   Closed   Opened   Closed
                       Hospitals                                1        0         2       0         1       1
                       Other Facilities                         2        3         0       0         7       0
                      Subtotal                                  3        3         2       0         8       1
                    Practitioners                      Opened        Closed   Opened   Closed   Opened   Closed
                      Counselors/
                                                                5        0         2       2         2       0
                      Psychologists
                       Dentists                                 2        1         4       2         3       3
                       Doctors of Medicine or
                                                                9        0         5       1         2       3
                       Osteopathy
                       Optometrists/Opticians                   1        0         0       0         1       0
                       Podiatrists                              0        0         0       0         1       1
                     Subtotal                              17             1       11        5        9        7
                    Medical Support                    Opened        Closed   Opened   Closed   Opened   Closed
                      Durable Medical
                                                                3        0         4       0         0       0
                      Equipment Suppliers
                      Home Health Care
                                                                2        0         1       0         0       1
                      Agencies
                       Home Health Care Aides                   5        3         0       4         3       0

                       Nurses/Doctors’
                                                                2        2         2       0         2       3
                       Assistants
                       Pharmaceutical
                                                                12      12         9       8         9       10
                       Manufacturers
                       Pharmacies                               0        0         2       0         1       1
                       Transportation Services                  0        1         0       0         0       0
                       Other Medical Support                    5        0         7       0         2       1
                     Subtotal                              29            18       25       12       17       16
                    Program Related                    Opened        Closed   Opened   Closed   Opened   Closed
                       Billing Company                          0        0         1       0         0       1
                      Subtotal                                  0        0         1       0         0       1
                      Total                                     49      22        39       17       34       25

                   Source: Unit response to OIG data request.




Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                          28
                   APPENDIX E
                   Methodology
                   We analyzed data from seven sources to describe the caseload and assess
                   the performance of the Unit. We also analyzed the data to identify any
                   opportunities for improvement and any instances in which the Unit did not
                   meet the performance standards or was not operating in accordance with
                   laws, regulations, and/or policy transmittals. 40 In addition, we noted
                   practices that appeared to benefit the Unit. We based these observations
                   on statements from Unit staff and an analysis of collected data.
                   Data Collection and Analysis
                   Review of Unit Documentation. We collected and reviewed (1) Unit
                   documentation, including policies and procedures related to the Unit’s
                   operations, staffing, and cases; (2) the Unit’s annual reports and quarterly
                   statistical reports; and (3) the Unit’s responses to recertification
                   questionnaires. The documentation also included data such as the number
                   of referrals received by the Unit and the number of investigations opened
                   and closed. We reviewed the documentation to determine how the Unit
                   investigates and prosecutes Medicaid cases. Additionally, we confirmed
                   with the Unit Director that the documentation we had was current at the
                   time of our review and requested any additional data or clarification, as
                   needed. The data we collected from the Unit was current as of January 27,
                   2014. Subsequent changes to the data would therefore not be included in
                   our analyses.
                   Review of Financial Documentation. We reviewed Unit financial
                   practices to determine compliance with applicable laws and regulations
                   and to determine the need for additional internal controls. Prior to the
                   onsite review, we reviewed the Unit’s financial policies and procedures;
                   its response to an internal control questionnaire; and MFCU grant-related
                   documents, such as financial status reports. During the onsite review, we
                   reviewed a sample of the Unit’s purchase and travel transactions. In
                   addition, we reviewed vehicle records, the equipment inventory, and a
                   sample of time and effort records.
                   Structured Interviews With Key Stakeholders. We conducted structured
                   interviews with six individual stakeholders among five agencies who were
                   familiar with Unit operations. Specifically, we interviewed the
                   Mississippi Division of Medicaid’s Bureau of Program Integrity Director,
                   two Assistant U.S. Attorneys, a Mississippi Deputy Attorney General, 41 an
                   40
                      All relevant regulations, statutes, and policy transmittals are available online at
                   http://oig.hhs.gov.
                   41
                      The Deputy Attorney General supervises the Unit Director.

Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                         29
                   OIG Special Agent based in Mississippi, and an FBI Special Agent. These
                   interviews focused on the Unit’s interaction with external agencies, Unit
                   operations, opportunities for improvement, and any practices that appeared
                   to benefit the Unit and that may be useful to other Units in their
                   operations.
                   Survey of Unit Staff. We conducted an online survey of Unit staff. 42 We
                   requested responses from 30 staff members and received responses from
                   29 staff members, a 97–percent response rate. Our questions focused on
                   Unit operations, opportunities for improvement, and practices that
                   appeared to benefit the Unit and that may be useful to other Units in their
                   operations. The survey also sought information about the Unit’s
                   compliance with applicable laws, regulations, and policy transmittals.
                   Structured Interviews With Unit Management and Selected Staff. We
                   conducted structured interviews with the Unit’s Director, Chief
                   Investigator, Fraud Supervisor, and Analyst. We asked them to provide us
                   with additional information to help us better understand the Unit’s
                   operations, identify opportunities for improvement, identify practices that
                   appeared to benefit the Unit and that may be useful to other Units in their
                   operations, and to clarify information obtained from other data sources.
                   Onsite Review of Case Files. We selected a simple random sample of
                   100 case files from the 2,086 cases 43 that were open at any point from
                   FY 2011 through FY 2013. The design of this sample allowed us to
                   estimate the percentage of all 2,086 cases with various characteristics at
                   the 95-percent confidence level. We reviewed these 100 sampled case
                   files and the Unit’s processes for monitoring the status and outcomes of
                   cases. From the 100 case files in the initial sample, we selected another
                   simple random sample of 50 files for a more comprehensive review to
                   identify any potential issues from a qualitative perspective. We consulted
                   Unit staff to address any apparent issues with individual case files, such as
                   missing documentation.
                   Onsite Review of Unit Operations. While onsite, we reviewed the Unit’s
                   operations. Specifically, we observed the intake of referrals, security of
                   data and case files, and the general functioning of the Unit. We also

                   42
                     We did not survey the Unit Director or Chief Investigator.
                   43
                     This figure includes cases opened before FY 2011 that remained open at some point
                   during FYs 2011–2013. This figure does not include 35 multi-State (“global”) civil
                   false-claims cases, which consist of both those worked directly by the Unit and those
                   worked by staff from the Federal government or other Units. For the purposes of our
                   case file review, the Unit’s global cases were not included as part of the Unit’s case file
                   population. Including global cases, the total number of Unit cases open during the review
                   period was 2,121.


Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                        30
                   checked to ensure that the Unit referred sentenced individuals to OIG for
                   program exclusion and that the Unit reported adverse actions to the
                   National Practitioner Data Bank (NPDB). 44, 45




                   44
                      The NPDB was established by the Department of Health and Human Services as “a
                   national health care fraud and abuse data collection program … for the reporting of
                   certain final adverse actions … against health care providers, suppliers, or practitioners.”
                   SSA § 1128E(a) and 45 CFR § 61.1(2012). This portion of the NDPB used to be a
                   separate databank called the Healthcare Integrity and Protection Databank (HIPDB). The
                   HIPDB and the NPDB were merged into one databank in May 2013. 78 Fed. Reg.
                   20473 (April 5, 2013).
                   45
                      Examples of adverse actions include criminal convictions; civil judgments (but not
                   civil settlements); exclusions; and other negative actions or findings, including “any
                   action or finding that under the State’s law is publicly available information, and
                   rendered by a licensing or certification authority, including but not limited to, limitations
                   on the scope of practice, liquidations, injunctions and forfeitures.” SSA § 1128E(g)(1)
                   and 45 CFR § 61.3 (2012). We reviewed the reporting of adverse actions under HIPDB
                   requirements because the HIPDB and the NPDB had not yet been merged during the
                   period of our review (FYs 2010 through 2012). Current Unit requirements for reporting
                   to the merged NPDB are in 45 CFR pt. 60.


Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                          31
                   APPENDIX F
                   Case File Review Population, Sample Size Counts, and
                   Confidence Interval Estimates
                   Table F-1 shows population and sample counts and percentages by case
                   type. Note that both samples have percentages of case types similar to the
                   general population, though sample counts for some case types are very
                   small. Because of these small sample sizes, we cannot reliably generalize
                   what we found in our sample review to each case type in the population,
                   and only our overall estimates project to the population of all case files.
                   We estimated the 4 population values for all 2,086 nonglobal case files
                   from the results of our review of the case files selected in our simple
                   random samples. Table F-2 includes the estimate descriptions, sample
                   sizes, point estimates, and 95-percent confidence intervals for these four
                   estimates.

                   Table F-1: Population and Sample Size Counts for Case Types
                                                         Population Count                Sample Count*                 Sample Count*
                    Case Type
                                                          and (%) n=2,086                 and (%) n=100                 and (%) n=50

                    Closed                                      1,491 (71%)                      73 (73%)                   33 (66%)

                    Open                                          595 (29%)                      27 (27%)                   17 (34%)



                    Civil (Nonglobal)                                  6 (0%)                       1 (1%)                    0 (0%)

                    Criminal                                   2,080 (100%)                      99 (99%)                  50 (100%)



                    Patient Abuse/Neglect                       1,979 (95%)                      97 (97%)                  50 (100%)

                    Provider Fraud
                                                                    107 (5%)                        3 (3%)                    0 (0%)
                    (Nonglobal)

                   Source: The Mississippi Unit provided a list of all case files open during FYs 2011 through 2013.
                   * OIG generated this random sample.




Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                                                32
                   Table F-2: Confidence Intervals for Key Case File Review Data
                                                                             Point    95-Percent Confidence
                    Estimate Description            Sample Size
                                                                          Estimate                  Interval
                    Case Files With No
                    Documented Supervisory                    100               7%                2.9–13.8%
                    Approval for Opening
                    Case Files With No
                    Documented Supervisory                     78            11.5%                5.5–20.6%
                    Approval for Closing
                    Case Files With No
                    Documentation of
                                                              100              44%               34.3–54.1%
                    Periodic Supervisory
                    Reviews
                    Cases That Were Not
                    Investigated Before the
                                                              100               5%                1.7–11.1%
                    Statute of Limitations
                    Expired




Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)                        33
                   APPENDIX G
                   Unit Comments




Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)   34
Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)   35
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Timothy S. Brady, Regional
                   Inspector General for Evaluation and Inspections in the San Francisco
                   regional office, and Michael Henry, Deputy Regional Inspector General.
                   Rosemary Rawlins served as the lead analyst for this study. Other Office
                   of Evaluation and Inspections staff who provided support from the San
                   Francisco regional office include Matthew DeFraga. Central office staff
                   who provided support include Susan Burbach, Kevin Farber,
                   Christine Moritz, Andrew VanLandingham, and Sherri Weinstein. Office
                   of Investigations staff who provided support include Ian Ives.




Mississippi State Medicaid Fraud Control Unit: 2014 Onsite Review (OEI-09-13-00700)       36
